Office of Audits
Report No. AUD-11-010


In-Depth Review of the Failure of
Washington First International Bank,
Seattle, Washington




                                   June 2011
                                        Executive Summary

                                        In-Depth Review of the Failure of Washington
                                        First International Bank, Seattle, Washington
                                                                                            Report No. AUD-11-010
                                                                                                        June 2011

Why We Did The Audit

On June 11, 2010, the Washington State Department of Financial Institutions (WDFI) closed Washington First
International Bank (Washington First), and the FDIC was appointed receiver. On August 20, 2010, the FDIC
notified the Office of Inspector General (OIG) that Washington First’s total assets at closing were $500 million
and that the estimated loss to the Deposit Insurance Fund (DIF) was $153.6 million. As of April 30, 2011, the
estimated loss to the DIF had decreased to $136.1 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection
Act (the Financial Reform Act). The Financial Reform Act amends section 38(k) of the Federal Deposit
Insurance Act (FDI Act) by increasing the material loss review (MLR) threshold from $25 million to
$200 million for losses that occur for the period January 1, 2010 through December 31, 2011. Although the
estimated loss for Washington First does not meet the amended threshold requiring an MLR, the OIG
determined that there were unusual circumstances involving parent/affiliate relationships and that an in-depth
review (IDR) of the loss was warranted as authorized by the Financial Reform Act.

The objectives of the review were to (1) determine the causes of Washington First’s failure and the resulting
loss to the DIF and (2) evaluate the FDIC’s supervision of Washington First, including the FDIC’s
implementation of the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act. A primary
area of focus during the review was the bank’s relationships with its parent holding company and other related
affiliates.

Background

Washington First, headquartered in Seattle, Washington, was established as a state nonmember bank and
insured in 1990. The bank was 100-percent owned by Washington First Financial Group, Inc. (WFFG), a one-
bank holding company. In addition to Washington First, WFFG had another operating subsidiary, Washington
First Capital, Inc. (WFC), that was formed to provide bridge financing secured by real estate and other lending
considered too untraditional for the bank. Both WFFG and WFC had concentrations of high-risk, speculative
real estate loans and often lent to Washington First customers whose borrowing relationships had reached the
bank’s legal lending limit. WFC’s portfolio consisted primarily of “hard-money” loans – a term often applied
to non-creditworthy borrowers whose loans are based primarily on estimated real estate loan-to-value ratios
rather than the ability of the borrower to repay.

Audit Results

Causes of Failure and Loss

Washington First’s Board of Directors (Board) and management were primarily responsible for the bank’s
overall poor financial condition because they failed to provide appropriate oversight of the institution’s lending
activities during a period of declining real estate market conditions. The FDIC attributed the institution’s
problems to concentrations in commercial real estate (CRE) and acquisition, development, and construction
(ADC) loans, coupled with poor credit administration, rapid asset quality deterioration, deficiencies in loan
underwriting and the allowance for loan and lease losses methodology, and reliance on non-core funding. Two
other factors that contributed to the bank’s elevated credit risk and, ultimately, to the institution’s failure were:
(1) a concentration of large borrowing relationships with a small number of bank customers and
(2) interrelationships among borrowers of the bank and the bank’s affiliates.



                                    To view the full report, go to www.fdicig.gov
   Executive Summary
                                        In-Depth Review of the Failure of Washington
                                        First International Bank, Seattle, Washington
                                                                                            Report No. AUD-11-010
                                                                                                        June 2011

Further, Washington First’s relationship with WFFG and WFC also increased risk at the bank and negatively
impacted the bank’s financial condition. Specifically, both WFFG and WFC were heavily involved in real
estate lending. Lending at WFFG was generally to accommodate Washington First customers whose
borrowing relationships had reached the bank’s legal lending limit. In addition, WFC engaged in lending
activities that were considered too untraditional for the bank’s portfolio and were characterized by
higher-than-normal risk and complexity.

The WDFI closed Washington First on June 11, 2010 because the bank was operating in an unsafe and
unsound condition.

The FDIC’s Supervision of Washington First

We reviewed the supervisory oversight of Washington First from 2004 through 2010. During this period, the
FDIC and/or the WDFI conducted six onsite risk management examinations and two visitations of the
institution. Further, the FDIC monitored emerging issues at the bank through its offsite review program and
reviewed the Federal Reserve Bank’s holding company inspection reports pertaining to the bank’s affiliates.
Through these supervisory efforts, examiners identified key risks in the bank’s operations and brought these
risks to the attention of the bank’s Board and management through examination reports and other
correspondence. In addition, the regulators downgraded certain supervisory component ratings and the
institution’s composite rating and imposed enforcement actions in 2005 and 2009 to address problems
identified at the December 2004 and March 2009 examinations, respectively.

As it relates to the focus of our review, the FDIC identified and reported significant concerns pertaining to
Washington First’s controls over affiliate relationships during the December 2004 examination. Examiners
subsequently determined during the January 2006 examination that the bank’s affiliate relationships were
acceptable, and no serious concerns in this area were raised again until the March 2009 examination. Based on
the examination working papers that were available for our review, we were unable to conclude on the
sufficiency of the procedures performed regarding affiliate relationships prior to 2009. However, the sharp
decline in the bank’s ratings that paralleled the deterioration in the institution’s financial condition underscores
the risks associated with the affiliate relationships in the years preceding the economic downturn. At a
minimum, consistent with forward-looking supervision, greater emphasis in the examination reports on those
risks and the adequacy of mitigating controls may have been warranted.

With respect to PCA, the FDIC had implemented supervisory actions that were consistent with relevant
provisions of section 38.

Management Response

On June 10, 2011, the Director, Division of Risk Management Supervision (RMS), provided a written
response to the draft report. In the response, the Director reiterated the OIG’s conclusions regarding the causes
of Washington First’s failure and described key supervisory actions that the FDIC and WDFI took to address
the bank’s deteriorating financial condition. The response also stated that in recognition that strong
supervisory attention is necessary for institutions with high ADC and CRE concentrations and volatile funding
sources, as was the case with Washington First, RMS issued updated guidance reminding examiners to take
appropriate actions when those risks are imprudently managed. Additionally, the response referenced
institution guidance that had been issued in 2008 and 2009 re-emphasizing the importance of robust credit risk-
management practices for institutions with concentrated CRE exposures and the reliance on volatile non-core
funding.



                                    To view the full report, go to www.fdicig.gov
   Executive Summary
                                       In-Depth Review of the Failure of Washington
                                       First International Bank, Seattle, Washington
                                                                                          Report No. AUD-11-010
                                                                                                      June 2011

With respect to the issue described in the report pertaining to the bank’s affiliate relationships, RMS concurred
with the report’s observations relating to risks posed by affiliates and the need for appropriate supervisory
attention. Additionally, the response stated that examiners followed long-standing guidance in the Risk
Management Manual of Examination Policies and that, as with prior in-depth review reports by the OIG, RMS
found the report to be instructive and indicated that they will consider it as they continually evaluate and
revise, as appropriate, existing examination guidance.




                                   To view the full report, go to www.fdicig.gov
                                 Contents
                                                                         Page
Background                                                                 2
  Washington First’s Financial Condition in the Years Preceding Its        3
    Failure
  Washington First’s Affiliate Relationships                               3

Causes of Failure and Loss                                                 3

The FDIC’s Supervision of Washington First                                 5
  Supervisory History                                                      6
  Supervisory Response to Risks Related to Affiliate Relationships         9
  Implementation of PCA                                                   13

OIG Evaluation of Corporation Comments                                    14

Appendices
  1. Objectives, Scope, and Methodology                                   16
  2. Glossary of Terms                                                    19
  3. Acronyms                                                             23
  4. Corporation Comments                                                 25

Tables
   1. Selected Financial Information for Washington First, 2004 - 2010     3
   2. Washington First’s Examination and Enforcement Action History        6
   3. FRB Inspection and Enforcement Action History for WFFG and           8
      WFC
Federal Deposit Insurance Corporation                                                                 Office of Audits
3501 Fairfax Drive, Arlington, Virginia 22226                                            Office of Inspector General


DATE:                                           June 20, 2011

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Risk Management Supervision


                                                /Signed/
FROM:                                           Mark F. Mulholland
                                                Assistant Inspector General for Audits

SUBJECT:                                        In-Depth Review of the Failure of Washington First
                                                International Bank, Seattle, Washington
                                                (Report No. AUD-11-010)


The Washington State Department of Financial Institutions (WDFI) closed Washington
First International Bank (Washington First) on June 11, 2010, and the FDIC was named
as receiver. On August 20, 2010, the FDIC notified the Office of Inspector General
(OIG) that Washington First’s total assets at closing were $500 million and that the
estimated loss to the Deposit Insurance Fund (DIF) was $153.6 million. As of April 30,
2011, the estimated loss to the DIF had decreased to $136.1 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act). The Financial Reform Act amends
section 38(k) of the Federal Deposit Insurance Act (FDI Act) by increasing the threshold
for a material loss review (MLR) from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. The Financial Reform Act
also requires the OIG to review all other losses incurred by the DIF to determine (a) the
grounds identified by the state or Federal banking agency for appointing the Corporation
as receiver and (b) whether any unusual circumstances exist that may warrant an in-depth
review of the loss. Although the estimated loss for Washington First does not meet the
amended threshold requiring an MLR, the OIG determined that there were unusual
circumstances involving parent/affiliate relationships and that an in-depth review (IDR)
of the loss was warranted as authorized by the Financial Reform Act.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of Washington First’s failure
and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including the FDIC’s implementation of the Prompt Corrective Action (PCA)
provisions of section 38 of the FDI Act. A primary focus of our review was the bank’s
relationships with its parent holding company and other related subsidiaries (collectively
referred to as “affiliates” in this report).
This report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in our material loss and
in-depth reviews, we will communicate those to FDIC management for its consideration.
As resources allow, we may also conduct more comprehensive reviews of specific
aspects of the FDIC’s supervision program and make recommendations as warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of terms,
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System (UFIRS, otherwise known as CAMELS ratings). Appendix 3
contains a list of acronyms. Appendix 4 contains the Corporation’s comments on a draft
of this report.


Background
Washington First, headquartered in Seattle, Washington, was established as a state
nonmember bank and insured in 1990. The bank was 100-percent owned by Washington
First Financial Group, Inc. (WFFG), a one-bank holding company that was formed in
July 2001. In addition to Washington First, WFFG had another operating subsidiary,
Washington First Capital, Inc. (WFC), which was formed in April 2002 to provide bridge
financing2 secured by real estate and other lending that was not offered by the bank.
Both WFFG and WFC had concentrations of high-risk, speculative real estate loans and
often lent to Washington First customers whose borrowing relationships had reached the
bank’s legal lending limit.3 WFC’s portfolio primarily consisted of “hard-money” loans,
a term often applied to non-creditworthy borrowers whose loans were based primarily on
estimated real estate loan-to-value (LTV) ratios rather than the ability of the borrower to
repay.

Management of the bank, WFFG, and WFC were collectively controlled by the bank’s
Co-Chief Executive Officers, a husband-and-wife team. The Co-Chief Executive
Officers were the largest shareholders of the parent company, with the husband owning
6.8 percent and the wife owning 6.7 percent. Washington First operated four branches in
the greater Seattle area of King County, Washington. The main office, located in Seattle,
held nearly half of the bank’s deposits.




1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of the report.
2
  Bridge financing is a term that includes temporary loans used by borrowers to bridge the time between
redemption of one debt security and the issuance of another.
3
  Legal lending limits are the aggregate maximum dollar amounts that a single bank can lend to a given
borrower. Legal lending limits vary by state.


                                                    2
Washington First’s Financial Condition in the Years Preceding Its Failure

Table 1 summarizes selected financial information for Washington First as of
March 2010 and for the 6 preceding calendar years.

Table 1: Selected Financial Information for Washington First, 2004 - 2010
       Financial          Mar         Dec         Dec         Dec         Dec         Dec         Dec
    Measures ($000s)      2010        2009        2008        2007        2006        2005        2004
    Total Assets         520,887     548,490     654,049    571,435     525,027     514,894     470,431
    Total Loans          397,188     408,517     522,885    455,537     353,897     363,149     344,224
    Total Deposits       441,362     477,418     517,232    443,469     426,891     420,798     383,985
    Net Income (Loss)     (4,669)   (57,947)      (8,741)     8,316       7,937       7,694       6,999
Source: Uniform Bank Performance Reports (UBPR) for Washington First.

Washington First’s Affiliate Relationships

According to the FDIC’s Division of Supervision and Consumer Protection (DSC)4 Risk
Management Manual of Examination Policies:

          The relationship of a bank with its affiliated organizations is important to the
          analysis of the condition of the bank itself. Because of the commonality of
          ownership or management that exists, transactions with affiliates may not be
          subject to the same sort of objective analysis that exists in transactions between
          independent parties. Also, affiliates offer an opportunity to engage in types of
          business endeavors that are prohibited to the bank itself yet those endeavors may
          affect the condition of the bank.

WFFG had a total of 24 subsidiaries. Of the 24 subsidiaries, 2 operated as lenders –
Washington First and WFC – while the remaining 22 subsidiaries were formed to dispose
of Other Real Estate Owned (OREO). We focused our review on Washington First’s
relationships with affiliates that could have significantly affected the bank’s operations
and overall financial condition. Accordingly, we concentrated our review on Washington
First and its relationships with WFFG and WFC. We did not perform detailed audit
procedures related to the remaining 22 subsidiaries.


Causes of Failure and Loss
Washington First’s Board of Directors (Board) and management were primarily
responsible for the bank’s overall poor financial condition because they failed to provide
appropriate oversight of the institution’s lending activities during a period of declining
real estate market conditions. The FDIC attributed the institution’s problems to
concentrations in commercial real estate (CRE) and acquisition, development, and
construction (ADC) loans, coupled with poor credit administration, rapid asset quality
4
  Effective February 13, 2011, the Chairman of the FDIC announced several organizational changes as a
result of the Financial Reform Act. One such change was to re-name the Division of Supervision and
Consumer Protection as the Division of Risk Management Supervision (RMS).


                                                   3
deterioration, deficiencies in loan underwriting and the allowance for loan and lease
losses (ALLL) methodology, and reliance on non-core funding. Two other factors that
contributed to the bank’s elevated credit risk and, ultimately, to the institution’s failure
were: (1) a concentration of large borrowing relationships with a small number of bank
customers and (2) interrelationships among borrowers of the bank and the bank’s
affiliates.

Regarding the bank’s concentration of credit in large borrowing relationships, the
March 2009 examination report stated that the level of lending to a relatively small
number of borrowers engaged in real-estate-related activities amplified CRE and ADC
concentration risks. According to the examination report, CRE and ADC loans measured
478 percent and 295 percent of Total Risk-Based Capital, respectively. Examiners
reported that a group of 12 borrowers, in the aggregate, represented exposure equivalent
to 243 percent of Tier 1 Leverage Capital, with 1 borrowing relationship representing
29 percent of the same capital measure. Further, the March 2009 examination report
indicated that $95.5 million of the $177 million (or 54 percent) in total adversely
classified assets related to the 12 borrowers.

With respect to interrelated borrowing relationships, the FDIC’s March 2009 examination
report stated:

       Further adding to the already elevated credit risk is a concentration in interrelated
       borrowers. This concentration is comprised of seven different borrowing entities
       at the institution totaling approximately $65 million, or 97 percent of Tier 1
       Leverage Capital, that potentially exposes the institution to undue risk. The
       concentration centers around [a borrower] and all the interrelated entities have
       ongoing business transactions amongst each other. With [the borrower] being the
       primary conduit of this business relationship, any weakness with [that] business
       could potentially affect the other borrowers and create additional credit stress
       within the portfolio on top of the current problems. The [borrower] relationship is
       adversely classified Substandard, and many of the borrowers within this
       concentration are also adversely classified in this Report. Management and the
       Board should monitor this concentration closely and make efforts to reduce the
       exposure these relationships present. Several of these borrowers also borrow
       from affiliate Washington First Capital Inc., thereby increasing overall
       organizational risk on a consolidated basis. [Emphasis added.]

The March 2009 examination report also provides evidence that Washington First’s
relationship with WFFG and WFC increased risk at the bank and negatively impacted the
bank’s financial condition. Specifically, the examination report states:

       The quality of capital is also impacted by issues at the holding company level.
       The parent, Washington First Financial Group (WFFG), is not considered a
       source of strength. The holding company has one non-bank subsidiary,
       Washington First Capital (WFC). Both WFFG and WFC are heavily involved in
       real estate lending. Lending at the holding company, WFFG, is generally to



                                              4
        accommodate bank customers whose borrowing relationships have reached the
        bank’s legal lending limit. WFC engages in lending activities considered too
        untraditional for the bank’s portfolio, and are characterized by higher than normal
        risk and complexity.

The WDFI closed Washington First on June 11, 2010 because the bank was operating in
an unsafe and unsound condition.


The FDIC’s Supervision of Washington First
We reviewed the supervisory oversight of Washington First from 2004 through 2010.
During this period, the FDIC and/or the WDFI conducted six onsite risk management
examinations and two visitations of the institution. Further, the FDIC monitored
emerging issues at the bank through its offsite review program and reviewed the Federal
Reserve Bank’s (FRB) holding company inspection reports pertaining to the bank’s
affiliates. Through these supervisory efforts, examiners identified key risks in the bank’s
operations and brought these risks to the attention of the bank’s Board and management
through examination reports and other correspondence. In addition, the regulators
downgraded certain supervisory component ratings and the institution’s composite rating
and imposed enforcement actions in 2005 and 2009 to address problems identified at the
December 2004 and March 2009 examinations, respectively.

As it relates to the focus of our review, the FDIC identified and reported significant
concerns pertaining to Washington First’s controls over affiliate relationships during the
December 2004 examination. Examiners subsequently determined during the January
2006 examination that the bank’s affiliate relationships were acceptable, and no serious
concerns in this area were raised again until the March 2009 examination. Based on the
examination working papers that were available for our review, we were unable to
conclude on the sufficiency of the procedures performed regarding affiliate relationships
prior to 2009.5 However, the sharp decline in the bank’s ratings that paralleled the
deterioration in the institution’s financial condition underscores the risks associated with
the affiliate relationships in the years preceding the economic downturn. At a minimum,
consistent with forward-looking supervision, greater emphasis in the examination reports
on those risks and the adequacy of mitigating controls may have been warranted.




5
 According to the FDIC, in conformance with the FDIC’s practices regarding workpaper retention,
generally, prior examination workpapers are destroyed unless the bank is subject to an enforcement action.


                                                    5
Supervisory History

Table 2 summarizes key supervisory information for Washington First from 2004 to
2010.

Table 2: Washington First’s Examination and Enforcement Action History
     Examination/                          Supervisory
    Visitation Start                         Ratings
  (Completion) Date        Regulators        (UFIRS)          Informal or Formal Action Takena
 December 6, 2004                                           Supervisory Directive by the WDFI,
 (February 4 2005)        FDIC             233222/3         dated May 20, 2005.
 August 22, 2005          FDIC
 (September 9, 2005)      (Visitation)     None             None.
 January 17, 2006
 (February 9, 2006)       FDIC/WDFI        232222/2         BBR, dated June 16, 2006.b
 February 5, 2007
 (February 27, 2007)      FDIC             122221/2         None.
 February 25, 2008
 (March 14, 2008)         WDFI             122121/2         None.
 March 9, 2009
 (April 14, 2009)         FDIC             454543/5         C&D, dated September 1, 2009.
 October 19, 2009         FDIC
 (October 30, 2009)       (Visitation)     555543/5         2009 C&D was still in effect.
 May 10, 2010
 (June 4, 2010)           FDIC/WDFI        555555/5         2009 C&D was still in effect.
Source: The FDIC’s Virtual Supervisory Information on the Net (ViSION) System and examination and
visitation reports for Washington First.
a
  Informal enforcement actions often take the form of Bank Board Resolutions (BBR) or Memoranda of
  Understanding (MOU). Formal enforcement actions often take the form of Cease and Desist Orders
  (C&D), but under severe circumstances, can take the form of insurance termination proceedings.
b
  Enforcement action related to the Bank Secrecy Act.

Offsite Reviews

Washington First was flagged for offsite review three times between December 2007 and
September 2008. Two of these reviews were triggered by asset growth but did not result
in a substantial shift in the FDIC’s supervisory strategy. The third offsite review, which
was on September 30, 2008, identified material deterioration in the bank’s overall
financial condition due to the institution’s exposure to ADC lending. As a result of the
September 30, 2008 offsite review, the FDIC downgraded the bank to a composite “3”
rating on December 10, 2008.

Enforcement Actions

The WDFI and the FDIC each pursued enforcement actions to address weak risk
management practices identified by examiners. A brief summary of these enforcement
actions follows.

May 2005 Supervisory Directive. The WDFI issued a Supervisory Directive based on
less-than-satisfactory conditions identified at the bank by the FDIC during the December


                                                   6
2004 examination. The Supervisory Directive, which became effective on May 20, 2005,
required that the bank:

      address apparent violations and contraventions of regulations;
      maintain an adequate ALLL;
      develop a plan to ensure an accurate loan-grading system;
      evaluate loan department staffing;
      correct loan administration weaknesses pertaining to such areas as construction
       inspection disbursement procedures, appraisal policies, and credit analysis
       practices – including loans to outside borrowers and affiliates;
      evaluate concentrations of credit and establish appropriate policy limits for
       concentrations;
      reduce the level of adversely classified assets; and
      enhance the internal audit function so that these deficiencies would be corrected.

September 2009 C&D. During the March 2009 FDIC examination, Washington First’s
condition was found to be unsatisfactory and, as a result, the FDIC initiated a C&D
against the bank. Among other things, the C&D required the bank’s Board and
management to develop and implement plans to reduce ADC concentrations; maintain
Tier 1 Capital at levels of not less than 10 percent; maintain adequate lending policies;
and govern the relationship between the bank, its holding company, and its affiliates.

The FRB’s Assessment of Affiliate Performance

The RMS Case Manager Procedures Manual provides guidance regarding the FDIC’s
coordination with other agencies, such as the Office of the Comptroller of the Currency,
the Office of Thrift Supervision, the Federal Reserve Banks, and State Authorities for
Federal Reserve member banks. Such coordination is important because the FDIC relies
on the reports of other regulators to monitor the financial condition of institutions not
supervised by the FDIC and to assess risks to the DIF. The primary goal in reviewing
these reports is to determine whether problems and risks have been identified and
appropriate corrective actions are being taken.

The FRB of San Francisco had primary supervisory and regulatory responsibility for
Washington First’s holding company, WFFG, and the holding company’s operating
subsidiary, WFC. From August 2005 to May 2010, the FRB performed six inspections of
the holding company and subsidiary. The FDIC considered the results of these
inspections in its supervisory activities pertaining to Washington First. Table 3
summarizes key supervisory information for WFFG and WFC, as reported by the FRB.




                                            7
Table 3: FRB Inspection and Enforcement Action History for WFFG and WFC
                    Risk      Financial                            Depository
   Inspection    Management   Condition   Impact       Composite   Institution
    Start Date     Rating      Rating     Rating         Rating      Rating      Enforcement Action
   August 1,                                                                      Cure Agreement
                     3           2          2             3            3
     2005                                                                        dated June 20, 2005
 July 24, 2006       2           2          2             2            2                None
  August 15,
                     2           2          2             2            2               None
     2007
 November 4,                                                                        MOU dated
                     3           3          4             3            2
     2008                                                                        December 24, 2008
 July 20, 2009       5           5          5             5            5              None
 May 6, 2010         5           5          5             5            5              None
Source: FRB Inspection Reports for WFFG and WFC.

Under the FRB’s rating system, a composite rating is based on an evaluation and rating of
risk management, financial condition, and the impact of the parent company and its non-
depository subsidiaries on the subsidiary depository institutions. A fourth component in
the rating system, Depository Institution, generally mirrors the primary supervisor’s
assessment of the subsidiary deposit institution(s). As is the case with the UFIRS, FRB’s
rating scale ranges from “1” to “5,” with a “5” rating indicating the highest degree of risk.

The following summarizes the issues identified by the FRB during its inspections of
WFFG and WFC.

        An inspection of WFFG conducted by the FRB in August 2005 resulted in an
         overall “3” (fair) rating, primarily because the holding company’s bank,
         Washington First, was in less than satisfactory condition as reported by the FDIC
         in its December 2004 examination report. On June 20, 2005, WFFG entered into
         a Cure Agreement with the FRB, requiring the parent to correct the deficiencies
         identified by the FDIC. In addition, the FRB reported in the August 2005
         inspection report that WFFG’s and WFC’s risk management practices pertaining
         to management oversight, loan underwriting, and risk monitoring needed
         improvement. The FRB concluded that, in addition to the problems identified at
         the bank in the FDIC’s December 2004 examination, the parent company’s weak
         risk management practices presented concerns given the higher-risk funding and
         lending activities conducted by the parent and WFC. However, FRB examiners
         reported that despite the bank’s poor rating and weak risk management practices
         at the affiliates, the WFFG served as a source of strength to Washington First.

        The FRB concluded in its July 2006 inspection of WFFG that the parent
         company’s overall condition had improved from fair to satisfactory based
         primarily on the condition and improvement in Washington First’s performance.
         FRB examiners concluded that WFFG and WFC were profitable, had sufficient
         cash flows, and were separately capitalized at levels commensurate with the risk
         of their activities. However, FRB examiners did note that WFFG’s and WFC’s
         lending activities could heighten the legal and reputational risks of the
         consolidated organization, which could, in turn, impact Washington First. For
         example, the FRB concluded that WFFG and WFC did not evaluate the ability of


                                                   8
        borrowers to repay their loans and did not perform onsite inspections of
        construction projects subsequent to funding the associated loans.

       The FRB’s August 2007 offsite inspection primarily addressed the FDIC’s April
        2007 examination findings. FRB examiners noted that there was a limited
        likelihood that the parent company or WFC would have a significant negative
        financial impact on Washington First.

       In the November 2008 inspection report, FRB assigned an overall “3” rating to
        WFFG. The report concluded that the financial condition of WFFG and WFC
        would likely have a significant negative impact on Washington First and that the
        parent company was not a source of strength to the bank. Matters requiring
        immediate attention included ineffective risk management and high levels of
        adversely classified ADC loans. FRB examiners noted that lending generally
        accommodated existing bank customers whose borrowing relationships had
        reached the State’s legal lending limit. The FRB entered into an MOU with
        WFFG on December 24, 2008 to address the holding company’s issues.

       In the July 2009 and May 2010 FRB inspection reports, FRB examiners assigned
        WFFG an overall “5” (or unsatisfactory) rating. Generally, WFFG’s and WFC’s
        issues mirrored the problems identified by the FDIC during its March 2009
        examination of Washington First. In the July 2009 inspection report, FRB
        examiners adversely classified $6.6 million and $51 million of WFFG’s and
        WFC’s loans, respectively. According to the FDIC, approximately $17 million of
        the $57.6 million in combined classifications consisted of over-line loans.6
        Further, affiliates held an additional $11.5 million in loans classified as Special
        Mention.7 Overall, FRB examiners concluded, in both the July 2009 and
        May 2010 inspection reports, that the parent company was not a source of
        strength to Washington First.

In summary, the results of the FRB’s inspection reports of WFFG and WFC were
relevant to the FDIC’s assessment of risk at Washington First. Specifically, as indicated
above, beginning with the FRB’s November 2008 inspection report, FRB examiners
reported deterioration in WFFG’s and WFC’s financial condition and were concluding
that the parent company was no longer a source of strength to Washington First. We saw
evidence in the March 2009 examination report that FDIC examiners considered these
results in their assessment of Washington First.

Supervisory Response to Risks Related to Affiliate Relationships

A synopsis of the FDIC’s and WDFI’s supervisory activities related to Washington
First’s affiliate relationships between 2004 and 2010 follows.

6
  Over-line loans refer to loans made by WFFG or WFC to Washington First borrowers who had reached
their State legal lending limits with the bank.
7
  Special mention loans are characterized as loans exhibiting potential weaknesses, which may result in
further deterioration if left uncorrected.


                                                    9
December 2004 FDIC Examination

Examiners assigned the bank a composite “3” rating and reported that bank
management’s controls over affiliate relationships were unacceptable and posed elevated
risk to the bank. Examiners noted that WFC’s lending activities (e.g., hard-money
lending/bridge loans) were high-risk and posed a potential threat to the institution.
Examiners noted bank management’s need to ensure that affiliate activities and risks
were independently managed and absorbed by the parent company without reliance on
the bank. The examination report also noted the following concerns:

      WFC elevated its risk profile by expanding its lending policies to include bridge
       loans.
      Collateral pledged by WFC for a $4 million line of credit from Washington First
       did not meet minimum loan quality standards as required by section 23A of the
       Federal Reserve Act.
      Examiners identified two borrowers of the bank having over-line loans totaling
       $7.4 million with the parent company. Examiners noted underwriting and credit
       administration deficiencies with the borrowers’ loans with Washington First.
      Washington First’s Board minutes did not address the potential impact of affiliate
       activities on bank borrowers.

FDIC examiners concluded that the high-risk lending activities undertaken by the
affiliates made Washington First vulnerable and recommended that management begin
tracking borrowers common to the bank and its affiliates. Examiners also concluded that,
because of these risks, the parent was not considered a source of strength to the
institution. Consequently, examiners recommended that management ensure that affiliate
activities and risks were independently managed and absorbed by the parent company
without reliance on the bank. As discussed previously, the WDFI issued a Supervisory
Directive in May 2005 to address the weaknesses identified by the FDIC during the
December 2004 examination. The directive required the bank to correct violations of
laws and regulations and credit administration weaknesses, including those related to
WFC.

January 2006 Joint Examination

This joint FDIC/WDFI examination resulted in a composite “2” rating, which was an
upgrade from the previous examination. Examiners noted that the bank’s loan policy
limited the amount of loans to any individual borrower to 35 percent of capital. In
addition, loans in excess of the State legal lending limit were sold to the bank’s parent
company, affiliate, or third-party participants. Further, the examination report stated that
WFFG borrowed $25.9 million from individual investors in order to fund over-line
financing that WFC provided to Washington First borrowers. In our view, such
borrowing reduced WFFG’s ability to be a source of strength for Washington First.
Examiners concluded that the bank’s controls over affiliate relationships were acceptable
and adequately addressed in various company agreements and policies. In response to
the May 2005 Supervisory Directive, bank management stated that the bank had ceased



                                             10
funding WFC’s over-line lending. However, WFC continued making these high-risk
loans, including to Washington First’s existing customers, with funds from other sources.

February 2007 FDIC Examination

The 2007 FDIC examination again resulted in a composite “2” rating, with three
component ratings – Capital, Asset Quality, and Sensitivity to Market Risk – showing
improvement. Examiners did not report issues related to the bank’s affiliate relationship
and noted that the parent company generated sufficient earnings to fund WFC’s
operations and, therefore, did not rely on Washington First for cash dividends. In
addition, the examination report noted that WFC maintained a $50 million line of credit
with the parent company in order to make loans with higher interest rates to borrowers
who were also customers of the bank (who had the over-line loans). In our view, such
lending negatively impacted the ability of WFFG to be a source of strength for
Washington First.

February 2008 WDFI Examination

At this examination, WDFI examiners again assigned the bank a composite “2” rating,
while indicating improvement in the Earnings component rating. Examiners concluded
that affiliate relationships were acceptable and that the parent holding company was an
additional source of strength to the institution. Examiners also noted that the parent was
profitable and was not reliant on dividends from Washington First to service debt.

March 2009 FDIC Examination

The March 2009 FDIC examination report stated that the bank was in an unsatisfactory
condition and operating with undesirable and objectionable conditions and practices. As
shown previously in Table 2, this examination resulted in the bank being downgraded to
a composite “5” rating, along with component “5” ratings for Asset Quality and Earnings.
In the report, examiners stated that the bank needed to improve its controls over the risks
to the bank from holding company and affiliate activities and transactions, such as over-
line loans. Examiners noted that WFFG was not a source of strength to the bank because
both the parent company and WFC were heavily involved in real estate lending to
accommodate borrowers who had reached their legal lending limit at Washington First,
resulting in elevated risk to the bank. In fact, the March 2009 examination report
indicated that $41 million in adversely classified loans was attributable to three borrowers
who also had loans with the bank’s affiliates that were adversely classified.8

Following the March 2009 examination, the FDIC conducted a visitation in
October 2009. The visitation report states that Washington First and its parent company
were in a critically deficient condition, highly leveraged, and unprofitable and were
operating with strained liquidity. Further, the visitation report concluded that WFFG
could not support the bank.

8
 These 3 borrowers were part of the concentration of 12 large borrowing relationships, discussed earlier,
which accounted for $95.5 million in adversely classified assets during the May 2009 examination.


                                                    11
May 2010 Joint Examination

The bank’s financial condition had further deteriorated at the time of the May 2010 joint
examination. This examination report provided the bank with component and composite
ratings of “5” and concluded that the bank’s distressed condition was due to management
and a Board, common to the bank and its affiliate, that pursued and approved a high-risk
concentration of ADC lending compounded by over-line lending by the bank’s WFC
affiliate. Examiners noted that many of these credits defaulted and that the consolidated
entity suffered large loan losses. An example from the May 2010 examination report
follows.

        Construction costs for a large residential condominium project exceeded the
        bank’s legal lending limit so affiliate, WFC, advanced additional notes to cover
        the remaining costs. However, due to its own liquidity constraints, WFC was
        unable to fund the remaining construction draws for the project. As of the May
        2010 examination, the construction loan that was originated in June 2007 totaled
        approximately $13 million and was included in the bank’s adverse classifications
        totaling $145 million.

As noted earlier, there was a dramatic decline in the supervisory ratings of Washington
First between the February 2008 (and earlier examinations) and the March 2009
examination, which resulted in a composite “5” rating.9 Based on the examination
reports leading up to 2009, it appears that there was limited change in the organizational
risk and practices related to Washington First’s affiliate relationships except for (1) the
significant deterioration in the quality of the loans associated with those relationships
caused by a weakening economy and (2) the manner in which the loans were funded.
More specifically, although bank management asserted during the January 2006
examination that it had ceased funding WFC’s over-line lending, all of the FDIC
examination reports that followed indicated that WFC continued such lending. None of
the examination reports included concerns about the high-risk nature of this lending
program undertaken by the management team and Board common to the bank, WFFG,
and WFC until after the loans began to deteriorate.

As it relates to the focus of our review, the FDIC identified and reported significant
concerns pertaining to Washington First’s controls over affiliate relationships during the
December 2004 examination. Examiners subsequently determined during the January
2006 examination that the bank’s affiliate relationships were acceptable, and no serious
concerns in this area were raised again until the March 2009 examination. Based on the
examination working papers that were available for our review, we were unable to
conclude on the sufficiency of the procedures performed regarding affiliate relationships
prior to 2009. However, the sharp decline in the bank’s ratings that paralleled the

9
  Between the February 2008 and March 2009 onsite examinations, the FDIC lowered Washington First’s
composite ratings on two occasions. Specifically, the FDIC assigned the bank a composite “3” rating as a
result of the previously mentioned offsite review completed on December 10, 2008. Further, in a letter to
the bank dated March 31, 2009, the FDIC informed the bank that it was being downgraded to a composite
“4” rating based on the preliminary results of the March 2009 examination.


                                                    12
deterioration in the institution’s financial condition underscores the risks associated with
the affiliate relationships in the years preceding the economic downturn. At a minimum,
consistent with forward-looking supervision, greater emphasis in the examination reports
on those risks and the adequacy of mitigating controls may have been warranted.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of
section 38 is to resolve problems of insured depository institutions at the least possible
long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and
Regulations defines the capital measures used in determining the supervisory actions that
will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans and for
the issuance of directives and orders pursuant to section 38. The FDIC is required to
closely monitor the institution’s compliance with its capital restoration plan, mandatory
restrictions defined under section 38(e), and discretionary safeguards imposed by the
FDIC (if any) to determine if the purposes of PCA are being achieved.

Based on the supervisory actions taken with respect to Washington First, we determined
that the FDIC properly implemented applicable PCA provisions of section 38. A
summary of the relevant PCA actions follows.

The bank was considered Well Capitalized for PCA purposes until September 1, 2009.
The bank fell to Adequately Capitalized at that time as a result of the issuance of a joint
C&D that contained a capital provision directing Washington First to increase its Tier 1
Capital “in such an amount as to equal or exceed 10 percent” of the bank’s total assets.
Section 325.103 of the FDIC Rules and Regulations states that a bank is deemed Well
Capitalized if it meets or exceeds the capital ratios defined in the section and is not
subject to a written agreement, order, capital directive, or PCA directive issued by the
FDIC pursuant to section 8 of the FDI Act. As an Adequately Capitalized institution,
Washington First was restricted from accepting, renewing, or rolling over brokered
deposits without a waiver from the FDIC. The C&D further stated that the level of Tier 1
Capital to be maintained during the life of the C&D would be in addition to a fully
funded ALLL.

On December 2, 2009, the FDIC notified Washington First that it was Undercapitalized
based on the institution’s September 30, 2009 Reports of Condition and
Income (Call Report). Further, the FDIC informed Washington First that, as of
December 2, 2009, the bank was subject to the mandatory requirements of section 38,
which included the submission of a capital restoration plan and restrictions on asset
growth, acquisitions, new activities and branches, the payment of dividends, other capital
distributions, and management fees. Washington First submitted a capital restoration
plan on January 20, 2010, and the FDIC notified the bank on March 26, 2010 that the



                                             13
plan was inadequate. Due to the bank’s failure to submit an acceptable capital plan, it
was subject to mandatory restrictions and actions embodied in section 38 of the FDI Act.

On March 29, 2010, the FDIC notified Washington First that it was Significantly
Undercapitalized based on the institution’s amended December 31, 2009 Call Report.
The FDIC also informed Washington First that in addition to being subject to the
mandatory requirements of section 38 on December 2, 2009, the FDIC imposed
restrictions on affiliate transactions and on the interest rates paid on deposits, along with
requiring the recapitalization or the sale of the bank. The FDIC issued a Supervisory
PCA Directive on April 1, 2010, requiring bank management to, among other things,
recapitalize the bank within 30 days; refrain from obtaining, renewing, or rolling over
any brokered deposits; restrict the interest rates that the bank paid on deposits; and refrain
from making any capital distributions or dividend payments to the parent company or any
affiliate of the bank or its parent.

On May 6, 2010, the FDIC notified Washington First that it was Critically
Undercapitalized based on the institution’s March 31, 2010 Call Report. The FDIC also
informed Washington First that, in addition to being subject to the mandatory
requirements of section 38, on April 1, 2010, the FDIC imposed restrictions requiring
bank management to obtain the FDIC’s written approval prior to, among other things,
entering into any material transaction other than in the usual course of business;
extending credit for any highly-leveraged transaction; amending the bank’s charter or
bylaws; paying excessive compensations or bonuses; and making any principal or interest
payment on subordinate debt beginning 60 days after becoming Critically
Undercapitalized.


OIG Evaluation of Corporation Comments
On June 10, 2011, the Director, RMS, provided a written response to the draft report. In
the response, the Director reiterated the OIG’s conclusions regarding the causes of
Washington First’s failure and described key supervisory actions that the FDIC and
WDFI took to address the bank’s deteriorating financial condition. The response also
stated that in recognition that strong supervisory attention is necessary for institutions
with high ADC and CRE concentrations and volatile funding sources, as was the case
with Washington First, RMS issued updated guidance reminding examiners to take
appropriate actions when those risks are imprudently managed. Additionally, the
response referenced institution guidance that had been issued in 2008 and 2009 re-
emphasizing the importance of robust credit risk-management practices for institutions
with concentrated CRE exposures and the reliance on volatile non-core funding.

With respect to the issue described in the report pertaining to the bank’s affiliate
relationships, RMS concurred with the report’s observations relating to risks posed by
affiliates and the need for appropriate supervisory attention. Additionally, the response
stated that examiners followed long-standing guidance in the Risk Management Manual
of Examination Policies and that, as with prior in-depth review reports by the OIG, RMS


                                             14
found the report to be instructive and indicated that they will consider it as they
continually evaluate and revise, as appropriate, existing examination guidance.




                                             15
                                                                             Appendix 1

                     Objectives, Scope, and Methodology

Objectives

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Financial Reform Act). The Financial Reform Act amends
section 38(k) of the FDI Act by increasing the threshold for a material loss review from
$25 million to $200 million for losses that occur for the period January 1, 2010 through
December 31, 2011. The Financial Reform Act also requires the OIG to review all other
losses incurred by the DIF to determine (a) the grounds identified by the state or Federal
banking agency for appointing the Corporation as receiver and (b) whether any unusual
circumstances exist that may warrant an in-depth review of the loss. Although the
estimated loss for Washington First no longer met the threshold requiring an MLR, the
OIG determined that an in-depth review of the failure of Washington First was warranted
as authorized by the Financial Reform Act.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of Washington First’s failure
and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of Washington
First, including the FDIC’s implementation of the PCA provisions of section 38 of the
FDI Act. We focused our review on the bank’s relationships with affiliates that could
have significantly affected the bank’s operations and overall financial condition.

We conducted this performance audit from November 2010 to February 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of Washington First’s operations from 2004
until its failure on June 11, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Reviewed and/or analyzed examination reports issued by the FDIC and the WDFI
         examiners from 2004 to 2010.

        Reviewed the following:

              Bank data contained in UBPRs and Call Reports.




                                            16
                                                                               Appendix 1

                     Objectives, Scope, and Methodology

             Excerpts of correspondence files from RMS’s San Francisco Regional and
              Seattle Field Offices.

             Examination workpapers related to the bank’s activities regarding its affiliate
              relationships.

             Reports prepared by the FDIC’s Division of Resolutions and Receiverships
              and RMS relating to the bank’s closure.

             Pertinent RMS policies and procedures and various banking laws and
              regulations.

             RMS’s ViSION Modules, including Supervisory Tracking and Reporting.

We interviewed FDIC examiners who participated in the various examinations of
Washington First and an FDIC Field Office official responsible for supervisory oversight.
We also contacted officials from the WDFI to discuss the institution’s examinations and
other activities regarding the state’s supervision of the bank.

We performed the audit work at the OIG office in Arlington, Virginia.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in RMS systems, reports,
examination reports, and interviews of examiners to understand Washington First’s
management controls pertaining to the causes of failure and loss as discussed in the body
of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this IDR, we did not assess the strengths and weaknesses
of RMS’ annual performance plan in meeting the requirements of the Results Act
because such an assessment was not part of the audit objectives. RMS’ compliance with
the Results Act is reviewed in program audits of RMS operations.


                                              17
                                                                            Appendix 1

                   Objectives, Scope, and Methodology


Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.


Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In addition, the OIG issued an audit report entitled, Follow-up
Audit of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in
December 2010. The objectives of the audit were to (1) determine the actions that the
FDIC has taken to enhance its supervision program since May 2009, including those
specifically in response to the May 2009 memorandum, and (2) identify trends and issues
that have emerged from subsequent MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and Federal regulators’ use of the
Prompt Regulatory Act provisions of the FDI Act (section 38, Prompt Corrective Action
and section 39, Standards for Safety and Soundness) in the banking crisis.




                                            18
                                                                                 Appendix 2

                               Glossary of Terms


Term                                               Definition
Acquisition,     ADC loans are a component of CRE that provide funding for acquiring and
Development,     developing land for future construction and that provide interim financing
and              for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Affiliate        Under section 23A of the Federal Reserve Act (12 United States Code
                 (U.S.C.), section 371c), an affiliate generally includes, among other things,
                 a bank subsidiary or a company that (1) controls the bank and any other
                 company that is controlled by the company that controls the bank, (2) is
                 sponsored and advised on a contractual basis by the bank, or (3) is
                 controlled by or for the benefit of shareholders who control the bank or in
                 which a majority of directors holds similar positions in the bank.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institution’s
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the ALLL in accordance with the institutions’ stated
                 policies and procedures, generally accepted accounting principles, and
                 supervisory guidance.

Bank Secrecy     The Congress enacted the BSA of 1970 to prevent banks and other financial
Act (BSA)        service providers from being used as intermediaries for, or to hide the
                 transfer or deposit of money derived from, criminal activity. The BSA
                 requires financial institutions to maintain appropriate records and to file
                 certain reports, including cash transactions over $10,000 via the Currency
                 Transactions Reports. These reports are used in criminal, tax, or regulatory
                 investigations or proceedings.

Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.




                                             19
                                                                                Appendix 2

                             Glossary of Terms


Cease and       A C&D is a formal enforcement action issued by a financial institution
Desist Order    regulator pursuant to 12 U.S.C., section 1818, to a bank or affiliated party to
(C&D)           stop an unsafe or unsound practice or a violation of laws and regulations. A
                C&D may be terminated when the bank’s condition has significantly
                improved and the action is no longer needed or the bank has materially
                complied with its terms.

Commercial      CRE loans are land development and construction loans (including 1-to-4-
Real Estate     family residential and commercial construction loans) and other land loans.
(CRE) Loans     CRE loans also include loans secured by multifamily property and nonfarm
                nonresidential property, where the primary source of repayment is derived
                from rental income associated with the property or the proceeds of the sale,
                refinancing, or permanent financing of the property.

Concentration   A concentration is a significantly large volume of economically related
                assets that an institution has advanced or committed to a certain industry,
                person, entity, or affiliated group. These assets may, in the aggregate,
                present a substantial risk to the safety and soundness of the institution.

FDIC’s          The FDIC’s supervision program promotes the safety and soundness of
Supervision     FDIC-supervised institutions, protects consumers’ rights, and promotes
Program         community investment initiatives by FDIC-supervised institutions. The
                FDIC’s RMS (1) performs examinations of FDIC-supervised institutions to
                assess their overall financial condition, management policies and practices
                (including internal control systems), and compliance with applicable laws
                and regulations and (2) issues related guidance to institutions and
                examiners.

Financial       A financial entity engaged in a broad range of banking-related activities,
Holding         created by the Gramm-Leach-Bliley Act of 1999. These activities include:
Company         insurance underwriting, securities dealing and underwriting, financial and
                investment advisory services, merchant banking, issuing or selling
                securitized interests in bank-eligible assets, and generally engaging in any
                non-banking activity authorized by the Bank Holding Company Act. The
                FRB is responsible for supervising the financial condition and activities of
                financial holding companies.

Loan-to-Value   A ratio for a single loan and property calculated by dividing the total loan
                amount at origination by the market value of the property securing the
                credit plus any readily marketable collateral or other acceptable collateral.

Material Loss   As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                Dodd-Frank Wall Street Reform and Consumer Protection Act, for the
                period beginning January 1, 2010 and ending December 31, 2011, a
                material loss is defined as any estimated loss in excess of $200 million.




                                           20
                                                                                 Appendix 2

                               Glossary of Terms


Memorandum       An MOU is an informal agreement between the institution and the FDIC
of               that is signed by both parties. The State Authority may also be party to the
Understanding    MOU. MOUs are designed to address and correct identified weaknesses in
(MOU)            an institution’s condition.

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies
                 can be adjusted appropriately. Offsite reviews are performed quarterly for
                 each bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review
                 findings are factored into examination schedules and other supervisory
                 activities.

Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the DIF. Part 325,
Action (PCA)     subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                 Regulations (C.F.R.), section 325.101, et. seq., implements section 38,
                 Prompt Corrective Action, of the FDI Act, 12 U.S.C., section 1831(o), by
                 establishing a framework for determining capital adequacy and taking
                 supervisory actions against depository institutions that are in an unsafe or
                 unsound condition. The following terms are used to describe capital
                 adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.
                 A PCA Directive is a formal enforcement action seeking corrective action
                 or compliance with the PCA statute with respect to an institution that falls
                 within any of the three categories of undercapitalized institutions.

Section 23A      Section 23A (1) establishes limits on the amount of “covered transactions”
                 between a member bank and its affiliates (any one affiliate and in the
                 aggregate as to all affiliates); (2) requires that all covered transactions
                 between a member bank and its affiliates be on terms and conditions that
                 are consistent with safe and sound banking practices; (3) prohibits the
                 purchase of low-quality assets from an affiliate; and (4) requires that
                 extensions of credit by a member bank to an affiliate, and guarantees on
                 behalf of affiliates, be secured by statutorily defined amounts of collateral.

Substandard      One of three types of classifications used by examiners to describe
                 adversely classified assets. The term is generally used to describe an asset
                 that is inadequately protected by the current sound worth and paying
                 capacity of the obligor or of the collateral pledged, if any. Substandard
                 assets have a well-defined weakness or weaknesses that jeopardize the
                 liquidation of the debt. Substandard assets are characterized by the distinct
                 possibility that the institution will sustain some loss if the deficiencies are
                 not corrected.




                                             21
                                                                               Appendix 2

                             Glossary of Terms


Tier 1 (Core)   Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital         325.2(v), as
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, foreign currency translation
                adjustments, less net unrealized losses on available-for-sale securities with
                readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section 325.5(g).
Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the FFIEC for the use of banking supervisors,
                bankers, and the general public and is produced quarterly from Call Report
                data submitted by banks.

Uniform         Financial institution regulators and examiners use the UFIRS to evaluate a
Financial       bank’s performance in six components represented by the CAMELS
Institutions    acronym: Capital adequacy, Asset quality, Management practices,
Rating System   Earnings performance, Liquidity position, and Sensitivity to market risk.
                Each component, and an overall composite score, is assigned a rating of 1
(UFIRS)
                through 5, with 1 having the least regulatory concern and 5 having the
                greatest concern.




                                           22
                                                                       Appendix 3

                              Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

BBR      Bank Board Resolution

BSA      Bank Secrecy Act

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to
         Market Risk

C.F.R.   Code of Federal Regulations

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FFIEC    Federal Financial Institutions Examination Council

FRB      Federal Reserve Bank

IDR      In-Depth Review

LTV      Loan-to-Value

MLR      Material Loss Review

MOU      Memorandum of Understanding

OIG      Office of Inspector General

OREO     Other Real Estate Owned

PCA      Prompt Corrective Action

RMS      Division of Risk Management Supervision



                                       23
                                                           Appendix 3

                              Acronyms

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System

U.S.C.   United States Code

ViSION   Virtual Supervisory Information on the Net

WDFI     Washington Department of Financial Institutions

WFC      Washington First Capital, Inc.

WFFG     Washington First Financial Group, Inc.




                                     24
                                                                             Appendix 4

                     Corporation Comments
   _________________________________________________________



Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                     Division of Risk Management Supervision

                                                                           June 10, 2011


TO:               Mark Mulholland
                  Deputy Assistant Inspector General for Audits

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Audit Report Entitled, In-Depth Review of the
                  Washington First International Bank, Seattle, Washington (Assignment No. 2010-
                  080)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-
Frank Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted an In-Depth Review of Washington
First International Bank (Washington First), which failed on June 11, 2010. This memorandum
is the response of the Division of Risk Management Supervision (RMS) to the OIG’s Draft
Report received on April 15, 2011.

Washington First failed primarily because of the Board’s and management’s inadequate
oversight of risk management practices, specifically those risks associated with the
concentrations of commercial real estate (CRE) and acquisition, development and construction
(ADC) loan portfolios. Washington First was also dependent on non-core funding sources,
primarily high-cost large deposits and Federal Home Loan Bank borrowings, to support
operations. Washington First continued to originate ADC loans while the real estate markets
were weakening which led to significant loan-related losses, poor earnings, and erosion of capital.

From 2004 through 2010, the FDIC and the Washington State Department of Financial
Institutions conducted six risk management examinations, two onsite visitations and on-going
offsite reviews. The 2009 FDIC examination found that Washington First’s overall condition had
rapidly deteriorated, earnings performance was critically deficient and capital levels did not
support its risk profile. As a result, examiners downgraded Washington First and issued a cease
and desist order. Washington First was unable to raise capital from external sources to support
its operations and remain viable.

In regards to the supervisory activities related to Washington First’s parent and affiliate
relationships, examiners followed long standing guidance of the Risk Management Manual of
Examination Policies. We concur with the Report’s observations relating to risks posed by
affiliates and the need for appropriate supervisory attention. As with prior in-depth review
reports by the OIG, we find the Report to be instructive and will consider it as we continually
evaluate and revise, as appropriate, our examination guidance.



                                                  25
                       Appendix 4

Corporation Comments




         26
